                                      News From
                            The Office of Inspector General
                        Corporation For National And Community Service




Four Individuals, Two Companies Debarred
WASHINGTON (March 28, 2006) - The Corporation for National and Community Service
(Corporation) has debarred four individuals and two companies from participating in government
programs as a result of investigations by the Office of Inspector General (OIG).

Ms. Delores M. Brown, Central Business Solutions, Inc. (CBS), Atlanta, GA; and Mr. Sydney
Penman and Mr. Greg Gadson, co-owners, Event Audio Visual Concepts, LLC (EAV), Atlanta,
GA; and their two companies were debarred following an investigation of bid rigging and other
Federal contracting violations.

The OIG disclosed evidence that Ms. Brown conspired with Mr. Penman to falsely misrepresent
EAV to the Federal Government in order to classify the business as being owned by a disabled
veteran, thereby receiving preferential consideration for contracts. Further investigation disclosed
evidence that Ms. Brown conspired with Mr. Gadson to submit fraudulent bids to the Corporation
with the intent of influencing the procurement process. This investigation also disclosed evidence
that Mr. Penman and Mr. Gadson violated the Code of Federal Regulation by engaging in Federal
contracts while employed by the Federal Government.

On March 9, 2006, the Corporation debarred both companies and the three individuals involved
for a period of three years from the date they were suspended (December 3, 2004).

In another action, Ms. Melissa Trejo, former AmeriCorps member, Hood River, OR, was debarred
on March 16, 2006, by the Corporation for two years after she admitted to illegally receiving both
AmeriCorps*Care and State childcare subsidies while enrolled in AmeriCorps.

Ms. Trejo received a total of $17,593.26 in childcare subsidies for her four children during her
AmeriCorps term, including $7,612.30 in AmeriCorps*Care subsidies to which she was not
entitled. AmeriCorps*Care participants are prohibited from simultaneously receiving State
childcare benefits.
On January 10, 2006, Trejo entered into a consent judgment in U.S. District Court which required
her to make restitution in the amount of $7,612.30.
Debarred persons are banned from participating in any government procurement and non-
procurement programs, including student loans, for up to three years. Their names are entered in
a General Services Administration debarment registry that is used by all Federal agencies.
